CERTIFICATE OF COMPLIANCE
Case No. - - Caption: Philadelphia Indemnity Insurance
Company v. Gateway Hospitality Group Inc.,
et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 5,250 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 14, 2

Sworn to before me on
October 14, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

Notary Public

